         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

Sludge Removal Operations at
the Hanford Site's K Basins




DOE/IG-0698                            September 2005
                                             2

found that neither the Department nor Fluor focused adequate attention on the sludge
removal portion of the SNF Project during the critical planning phase. Resources were
concentrated primarily on fuel removal with little emphasis on key project actions, such
as the development of a risk mitigation plan. Further, we found that a dedicated manager
had not been assigned to the project. Finally, prior to 2004, the Department had not
structured performance fees to effectively incentivize contractor activities relevant to
phase two of the project. As a result of these factors, milestones set by the Tri-Party
Agreement may be missed and cost overruns within the project could negatively impact
the Department's ability to further accelerate cleanup work on the Hanford Site.

To its credit, the Richland Operations Office has initiated several actions to address the
weaknesses noted in our report. First, in 2004, Richland revised the performance
incentives for the sludge removal process to distribute fee over the various aspects of the
project. Second, Richland developed a new approach to project management intended to
provide more centralized control of project baselines and to ensure that adequate
resources are assigned to projects. However, this effort will not be fully in place until the
end of Fiscal Year 2006. While we recognize that certain improvements have been made,
additional efforts focusing on project planning and risk assessment/mitigation need to be
implemented. Accordingly, we made specific recommendations to assist in this effort.

MANAGEMENT REACTION

The Office of Environmental Management concurred with the report's recommendations
and has initiated actions to address the issues noted in the report.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Chief of Staff
REPORT ON THE SLUDGE REMOVAL OPERATIONS AT THE
HANFORD SITE'S K BASINS




TABLE OF
CONTENTS


  Project Schedule and Cost

  Details of Finding                             1

  Recommendations and Comments                   4


  Appendices

  1. Objective, Scope, and Methodology           6

  2. Related Audit Reports                       7

  3. Management Comments                         8
Sludge Removal

Project Schedule   The sludge removal phase of the Spent Nuclear Fuels (SNF) Project
and Cost           has experienced schedule delays and cost increases. For example,
                   the original Tri-Party Agreement (TPA) milestone called for
                   sludge removal to begin by December 2002; however, Fluor was
                   unable to begin operations until July 2004 – 18 months later than
                   planned.

                   In April 2003, Fluor initiated the final step towards beginning
                   sludge removal operations. This step, called the Operational
                   Readiness Review (ORR), required an assessment to verify that an
                   adequate state of readiness had been achieved to begin startup of
                   sludge removal operations. Due to numerous deficiencies, the
                   ORR was halted shortly after it started. Deficiencies included
                   instances where installed equipment did not meet construction
                   specifications, testing documentation was either inadequate or
                   nonexistent, and changes were made to equipment designs without
                   an adequate review for potential safety impacts.

                   Although the ORR deficiencies were resolved and operations
                   began in July 2004, additional delays have occurred. Specifically:
                      •   Visibility in the basin water was greatly reduced by grout
                          poured into portions of the basins and by fine particles
                          suspended in the water from sludge removal operations.
                          This reduced visibility prevented efficient operation and
                          extended all in-basin cleanup activities.

                      •   The filters used in the sludge removal process have been
                          blocked frequently by fibrous material and required regular
                          cleaning to clear them.

                      •   Operators found a large amount of debris underneath the
                          sludge that had not been anticipated such as scaffold
                          planks, welding blankets, a fire hose, and fuel spacers that
                          required extensive efforts to remove.

                   Each of these problems, among others, impacted the sludge
                   removal operations by either causing delays or increasing the
                   amount of work required. Fluor officials estimated that these
                   combined factors would delay completion of sludge
                   containerization within the K East Basin by five months from
                   March 1 to July 31, 2005.




Page 1                                                             Details of Finding
                 Since October 2002, the actual costs incurred for sludge removal
                 have exceeded planned expenditures by 35 percent, and cost
                 overruns continue to increase. Richland's current cost estimate for
                 completing sludge operations is $145.9 million with work to be
                 completed by October 2007. However, from October 2002
                 through the end of June 2005, the actual cost of sludge removal
                 operations exceeded the budgeted estimate by approximately $34
                 million. For the first nine months of Fiscal Year (FY) 2005, actual
                 costs were almost $25 million – or 68 percent – higher than
                 anticipated.

Management and   Although problems such as reduced visibility, clogged filters, and
Oversight        unexpected debris contributed to the schedule delays and cost
                 overruns, officials did not focus adequate attention on project
                 management. In addition, previous performance measures were
                 not implemented that would have effectively incentivized Fluor to
                 complete sludge removal.

                                         Project Management

                 Neither Richland nor Fluor management provided adequate
                 attention to the planning phase for sludge removal activities, or to
                 ensuring that key staff were assigned to the project prior to
                 initiation of operations. Project resources instead were
                 concentrated primarily on fuel removal and preparation for sludge
                 removal did not receive adequate resources. For example, critical
                 project management activities such as the development of a risk
                 management plan were not completed by Richland and Fluor until
                 after sludge removal activities began. Additionally, Fluor Hanford
                 did not assign a dedicated project manager to sludge removal until
                 after operations began and Fluor had failed to successfully
                 complete the ORR in April 2003.

                 As noted above, the sludge removal risk management plan was not
                 developed or approved prior to the commencement of operations.
                 While a risk management plan for sludge removal is now in place,
                 it was not approved until August 2004 – one month after actual
                 removal activities resumed. Moreover, the Project Execution Plan
                 for the SNF Project as a whole, which includes the risk
                 management plan, only covers activities through FY 2006, the end
                 of Fluor's contract, rather than through project completion in FY
                 2009.

                 By delaying the identification and mitigation of potential project
                 risks, the Department significantly decreased its ability to deal with



Page 2                                                            Details of Finding
         these risks in a timely and cost efficient manner. Additionally,
         while the risk management plan did include a listing of the risks, it
         did not contain in-depth risk identification or clear risk mitigation
         strategies, which would have provided the basis for either avoiding
         or minimizing the potential risks. For example, the plan to treat
         the sludge in a part of K East Basin, known as the North Load-Out
         Pit, states that careful planning and execution would be necessary
         to meet the schedule, but does not detail the problems that could be
         encountered during removal. Another example of inadequate
         planning was that the plan for placing the sludge in containers only
         considered the container design, not how the sludge will actually
         be put into the containers.

         Fluor had also not assigned a dedicated project manager to the
         sludge portion of the project until after the ORR was halted, a
         factor that Fluor's own analysis indicated contributed to the ORR's
         failure. Had a sludge project manager been in place, an earlier and
         more thorough planning for the project may have occurred, thereby
         mitigating the adverse events (i.e. water visibility and clogged
         filters) encountered.

         In addition to our audit, the Defense Nuclear Facilities Safety
         Board (Board) has noted similar problems within the sludge
         removal project. In a February 2005 letter to the Department's
         Office of Environmental Management (EM), the Board listed
         several issues identified during its recent review of the sludge
         removal project. The Board stated that a number of difficulties
         being experienced by the project were the result of not applying
         the core functions of Integrated Safety Management, including:
         defining the scope of work and identifying and controlling hazards.
         The Board also noted that planning for the project life cycle was
         incomplete and that there was a lack of integration between sludge
         removal subprojects. In response, EM management concurred
         with the Board's concerns and has stated its intent to take action.

                               Performance Measures

         Finally, Richland did not initially develop strong performance
         measures with associated incentives to effectively complete sludge
         removal. Rather, the performance incentives within the contract
         were "front-loaded" with the majority of fee being earned when the
         initial quantities of sludge was removed from the basin, but with
         little incentive offered to complete sludge removal. Richland




Page 3                                                   Details of Finding
                   officials stated that the incentives were intentionally structured in
                   this manner to ensure the initiation of difficult one-of-a-kind
                   projects. However, during FY 2004 Richland revised the
                   performance incentives for the sludge removal project. Under the
                   new performance incentives Fluor's ability to earn fee was
                   distributed throughout the various phases of the sludge project.
                   Although no formal recommendations will be made concerning
                   this issue, the effectiveness of the revised incentives should
                   continue to be monitored.

Impact on Future   If project management and oversight are not improved, it is likely
Milestones and     that the milestones to complete sludge removal will slip
Other Projects     further. It should be noted that since March 2001, the TPA
                   milestones for the sludge project have been changed on at least
                   three occasions due to scope changes. Furthermore, if additional
                   problems are encountered, the ability to accelerate cleanup work at
                   the Hanford Site will be impacted. For example, in order to
                   provide additional funding for increased sludge operations costs,
                   Fluor may need to eliminate lower priority cleanup work currently
                   scheduled to be done in FY 2005.


RECOMMENDATIONS    We recommend that the Assistant Secretary for Environmental
                   Management direct the Richland Operations Office to:

                       1. Develop a complete risk assessment/mitigation plan that
                          addresses all aspects of risk regarding the SNF Project,
                          along with developing effective mitigation strategies for
                          identified risks to support ongoing project operations.

                       2. Ensure that long term project planning is completed in
                          sufficient detail to prevent further delays to the project.

                       3. Based on the prior two recommendations, reevaluate the
                          current cost and schedule baseline to ensure that all project
                          requirements and potential risks are addressed.


MANAGEMENT         The Office of Environmental Management (EM) concurred with
COMMENTS           the recommendations and initiated corrective actions to address
                   each of the recommendations. These actions included updating
                   and completing documented risk assessments for the balance of
                   contract work scope by the end of January 2006; applying a




Page 4                                          Recommendations and Comments
           disciplined, systematic approach to long-term planning to be
           completed by the end of April 2006; and, reevaluating and
           updating the project baseline to reflect impacts associated with K
           East sludge containerization to be completed by the end of May
           2006.


AUDITOR    We consider management's comments and actions to be responsive
COMMENTS   to our recommendations.

           Management's comments are included in their entirety in
           Appendix 3.




Page 5                                                            Comments
Appendix 1

OBJECTIVE     To determine if the sludge removal process phase of the Spent
              Nuclear Fuels (SNF) Project will be completed within the revised
              schedule and estimated cost parameters.


SCOPE         We conducted the audit from July 2004 to June 2005, at the
              Hanford Site in Richland, Washington. The scope of the audit
              covered Richland's Spent Nuclear Fuel Project.


METHODOLOGY   To accomplish the audit objective, we:


                   •   Obtained and reviewed project documents for the SNF
                       Project;

                   •   Researched Federal and Departmental regulations;

                   •   Reviewed findings from prior audit reports regarding
                       SNF activities;

                   •   Reviewed the Fluor Hanford, Inc. contract with the
                       Richland Operations Office;

                   •   Assessed internal controls and performance measures
                       established under the Government Performance and
                       Results Act of 1993; and,

                   •   Interviewed key personnel in the Richland Operations
                       Office and Fluor Hanford, Inc.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              We assessed compliance with the Government Performance and
              Results Act of 1993 related to Richland's Spent Nuclear Fuel
              Project. As stated in the report, the audit found that although
              performance incentives had been established they were not
              effective to ensure project completion. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did
              not conduct a reliability assessment of computer-processed data
              because we did not consider such data critical to achieving our
              audit objective.

              Management officials waived the exit conference.


Page 6                                   Objective, Scope, and Methodology
Appendix 2


                                RELATED AUDIT REPORTS


Office of Inspector General Reports:

   •   Completion of K Basins Milestones (DOE/IG-0552, April 2002). This report found that
       the Department of Energy was in jeopardy of missing milestones in the Tri-Party
       Agreement associated with the removal of fuel from the K-Basins. Achievement of the
       TPA's milestones was jeopardized because the Department's plan for cleanup of the K
       Basins was not adequate to ensure that the deadlines would be met. Specifically, the
       Department agreed to the milestones before completing construction of required
       facilities, without a full understanding of new technologies that would be employed, and
       without a realistic processing schedule. Essentially, the Department's planning
       assumptions were overly optimistic.

Government Accountability Office Reports

   •   Nuclear Waste: Management Problems at the Department of Energy's Hanford Spent
       Nuclear Fuel Storage Project (GAO/T-RCED-98-119, May 1998). The GAO reported
       that the project was over 4 years behind schedule and that its estimated cost had doubled
       to about $1.4 billion. The GAO identified several reasons for the problems, including an
       overly optimistic schedule that lacked adequate time to address contingencies, poor
       performance by the project contractor in managing the schedule and resolving critical
       issues, and inadequate management and oversight by DOE and its contractor in charge of
       managing the entire Hanford Site.

   •   Nuclear Waste: DOE's Hanford Spent Nuclear Fuel Storage Project-Cost, Schedule, and
       Management Issues (GAO/RCED-99-267, September 1999). The report found that
       completion of the project is scheduled for July 2007 at a cost of $1.7 billion-about 6 years
       and $1 billion beyond the original estimates. Additionally, the report specified that the
       estimated date for completing safety documentation has slipped, operational readiness
       issues have become major challenges, and most of the extra time built into the schedule
       for addressing contingencies has already been used up. The GAO report found that
       concerns continue to exist about the project's management and oversight. Also, focused
       management attention is needed to successfully bring the project to completion.




Page 7                                                               Related Audit Reports
Appendix 3




Page 8       Management Comments
Appendix 3 (continued)




Page 9                   Management Comments
                                                                    IG Report No. DOE/IG-0698

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
